UNITED STATES OF AMERICA
FEDERAL TRADE COMMISSION

WASHINGTON, D.C. 20580

 

Office of the Secretary

October 30, 2000

Sheila A. Millar, Esq.
Keller and Heckman, LLP
1001 G Street N.W.

Suite 500 West
Washington, D.C. 20001

Re: Petition of Cargill Dow for a new generic fiber name and definition under
the Rules and Regulations Under the Textile Fiber Products Identification
Act, 16 C.F.R. Part 303.

Dear Ms. Millar:

Pursuant to Rule 8 of the Rules and Regulations Under the Textile Fiber Products
Identification Act, 16 C.F.R. § 303.8, the Commission has assigned the designation “CD 0001”
to Cargill Dow’s PLA fiber for temporary use until a final determination can be made as to the
merits of the application.

The assignment of this temporary designation should not be construed as indicating that
the Commission will either grant or deny the application or that the Commission has determined
the application to be complete.

By direction of the Commission.

£ eh—

Donald S. Clark
Secretary
